NO. 20-315

In the
Supreme Court of the United States
JOSE SANTOS SANCHEZ AND SONIA GONZALEZ,

Petitioners,
v.
ALEJANDRO N. MAYORKAS, SECRETARY,
UNITED STATES DEPARTMENT OF HOMELAND SECURITY, ET AL.,

Respondents.
__________________________

On Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
BRIEF OF AMICUS CURIAE
HARVARD TPS COALITION
IN SUPPORT OF PETITIONERS

SAMEER AHMED

COUNSEL OF RECORD

SABRINEH ARDALAN
HARVARD IMMIGRATION AND REFUGEE CLINICAL PROGRAM
HARVARD LAW SCHOOL
6 EVERETT STREET
CAMBRIDGE, MA 02138
(617) 384-8165
SAHMED@LAW.HARVARD.EDU
COUNSEL FOR AMICUS CURIAE

MARCH 1, 2021
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ...................................... iii
INTEREST OF AMICUS CURIAE ............................ 1
INTRODUCTION AND
SUMMARY OF THE ARGUMENT ..................... 2
ARGUMENT ............................................................... 6
I.

HARVARD TPS RECIPIENTS HAVE DEEP
ROOTS IN THEIR COMMUNITIES, AND SUPPORT
HARVARD UNIVERSITY, THEIR FAMILIES,
THEIR LOCAL ECONOMIES, AND THE NATION ..... 6
A. Harvard University Is Dependent on
Many TPS Recipients to Provide Critical
Support Across the University ................... 9
B. Harvard TPS Recipients Have Children
and Spouses, Many of Whom Are U.S.
Citizens, That Are Dependent on Their
Remaining in the Country ........................ 13
C. Harvard TPS Recipients Contribute
Significantly to Local, State, and Federal
Economies Through Their Taxes and
Spending Power, and Could Contribute
Even More If They Became Permanent
Residents ................................................... 18

ii
TABLE OF CONTENTS – Continued
Page
II. HARVARD TPS RECIPIENTS NEED A SAFE
AND ACCESSIBLE PATHWAY TO PERMANENT
RESIDENCY ...................................................... 22
A. The Temporary Nature of TPS Presents
Undue Financial and Emotional Costs
for Harvard TPS Recipients ..................... 23
B. Eligible TPS Recipients Should Not Be
Required to Disrupt Their Lives and
Return to Unsafe Conditions in Their
Countries of Origin to Obtain Permanent
Residency .................................................. 26
CONCLUSION.......................................................... 30

iii
TABLE OF AUTHORITIES
Page
TABLE OF AUTHORITIES

CASES

Ramos v. Nielsen,

No. 18-cv-01554 (N.D. Cal. Oct. 3, 2018) .......... 25

STATUTES
8 U.S.C. § 1182(a)(9)(B) ............................................. 26
8 U.S.C. § 1254a(b) ................................................... 28
8 U.S.C. § 1255 .......................................................... 27
JUDICIAL RULES
Sup. Ct. R. 37.3(a) ....................................................... 1
Sup. Ct. R. 37.6 ............................................................ 1
OTHER AUTHORITIES
Amanda Baran et al.,

Economic Contributions by Salvadoran,
Honduran, and Haitian TPS Holders,

Immigrant Legal Res. Ctr. (2017),
https://www.ilrc.org/sites/default/files/
resources/2017-04-18_economic_
contributions_by_salvadoran_honduran_
and_haitian_tps_holders.pdf ...................... 19, 20

American Immigration Council,

Workers with Temporary Protected Status
in Key Industries and States (2019), https://
www.americanimmigrationcouncil.org/
research/workers-temporary-protectedstatus-key-industries-and-states ...................... 21

iv
TABLE OF AUTHORITIES – Continued
Page
CAP Immigration Team,

TPS Holders in Massachusetts,

Ctr. for Am. Progress, https://cdn.
americanprogress.org/content/uploads/2017/
10/19130146/101717_TPSFactsheet-MA.pdf ... 19
Cecilia Menjivar,

Temporary Protected Status in the United
States: The Experiences of Honduran and
Salvadoran Immigrants, Ctr. for Migration

Rsch., The Univ. of Kansas (2017), http://
ipsr.ku.edu/migration/pdf/TPS_Report.pdf .. 3, 26

Cristela Guerra,

Harvard Service Workers Learn English
Between Shifts, BOS. GLOBE (Apr. 4, 2018),

https://www.bostonglobe.com/lifestyle/2018/
04/04/harvard-service-workers-squeezeclasses-between-shifts/
PjcnajBKTr02U7uijFwafI/story.html ............... 12

Ctr. for Disease Control and Prevention,
Covid-19 in El Salvador, https://wwwnc.cdc.
gov/travel/notices/covid-4/coronavirus-elsalvador ............................................................. 27
Denise Delgado,

Children of TPS Recipients Bring Stories of
Uncertainty to the Stage With ‘The Last
Dream’, WBUR (Dec. 20, 2018),

https://www.wbur.org/artery/2018/12/20/
the-last-dream-children-tps-el-salvador ........... 16

v
TABLE OF AUTHORITIES – Continued
Page
Drew G. Faust,

Letter from Drew G. Faust, President,
Harv. Univ. to Speaker Ryan and Leaders
McConnell, Schumer, and Pelosi, U.S.
Congress (Feb. 2, 2018) (on file with author) ..... 3

Drew Gilpin Faust & Christopher L. Eisgruber,

Letter in Support of Those Affected by TPS
Policy Changes, Harv. Univ.: Office of the

President (May 16, 2018), https://www.
harvard.edu/president/news-faust/2018/
letter-in-support-of-those-affected-by-tpspolicy-changes/ .................................. 4, 10, 11, 12
Eduardo Porter,

Harvard Is Vaulting Workers Into the
Middle Class With High Pay. Can Anyone
Else Follow Its Lead?,

N.Y. TIMES (Sept. 8, 2018), https://www.
nytimes.com/2018/09/08/business/economy/
harvard-living-wage.html?module=inline ........ 19

Harvard TPS Coalition,

Letter from Harv. TPS Coal. to Drew G.
Faust, President, Harv. Univ.

(Jan. 26, 2018) (on file with author) ................... 3

Hirokazu Yoshikawa,

Immigrants Raising Citizens:
Undocumented Parents and Their Young
Children, Russell Sage Foundation (2011)....... 17

Hum. Rights Watch,

El Salvador Events of 2020, https://www.

hrw.org/world-report/2021/countrychapters/el-salvador .......................................... 15

vi
TABLE OF AUTHORITIES – Continued
Page
Jill H. Wilson,

Temporary Protected Status: Overview
and Current Issues,

CONG. RSCH. SERV. (Oct. 26, 2020) .................... 2

Lawrence S. Bacow,

Letter to President-elect Biden, HARV.

UNIV.: OFFICE OF THE PRESIDENT (Dec. 11,
2020), https://www.harvard.edu/president/
news/2020/letter-to-president-elect-biden/ ....... 11
Leila Schochet & Nicole Prchal Svajlenka,
How Ending TPS Will Hurt U.S.-Citizen
Children, CTR. FOR AM. PROGRESS (2019),
https://cdn.americanprogress.org/content/
uploads/2019/02/07053255/Children-of-TPSHolders-factsheet.pdf ........................................ 13
Lydialyle Gibson,

The Time Is Now, HARVARD MAGAZINE

(Feb. 19, 2021), https://harvardmagazine.
com/2021/02/president-bacow-joins-leaderscalling-for-immigration-reform ..................... 4, 11
Miriam Jordan,

Trump Administration Says That Nearly
200,000 Salvadorans Must Leave,

N.Y. TIMES (Jan. 8, 2018),
https://www.nytimes.com/2018/01/08/us/
salvadorans-tps-end.html ................................... 5

vii
TABLE OF AUTHORITIES – Continued
Page
New Am. Econ. Rsch. Fund,
Overcoming the Odds: The Contributions of
DACA-Eligible Immigrants and TPS
Holders to the U.S. Economy (2019), https://
research.newamericaneconomy.org/report/
overcoming-the-odds-the-contributions-ofdaca-eligible-immigrants-and-tps-holdersto-the-u-s-economy/#_ftn19 ......................... 18, 19
Nurith Aizenman,

What You May Not Realize About the End
of TPS Status of Salvadorans,

NPR (Jan. 9, 2018), https://www.npr.org/
sections/goatsandsoda/2018/01/09/
576583550/what-you-may-not-realize-aboutthe-end-of-tps-status-for-salvadorans ........ 20, 21

The Crimson Editorial Board,

Calling for Permanent, Not Temporary,
Protected Status, THE HARV. CRIMSON

(Feb. 6, 2018), https://www.thecrimson.com/
article/2018/2/6/editorial-permanent-nottemporary/ ......................................................... 12

U.S. Bureau of Lab. Stat.,

Civilian Labor Force Participation Rate,
https://www.bls.gov/charts/employmentsituation/civilian-labor-force-participationrate.htm ............................................................... 3

U.S. Dep’t of State,

Department of State Recommendations
Regarding TPS for Haiti, Honduras, and El
Salvador (Oct. 31, 2017), https://tinyurl.

com/TPS-St-Dept ............................................... 14

viii
TABLE OF AUTHORITIES – Continued
Page
U.S. Dep’t of State,

El Salvador Travel Advisory,

U.S. DEP’T OF STATE–BUREAU OF CONSULAR
AFFAIRS (Sept. 14, 2020), https://travel.state.
gov/content/travel/en/international-travel/
International-Travel-Country-InformationPages/ElSalvador.html ....................................... 14
USCIS,

Advance Parole, available at https://www.

uscis.gov/green-card/green-card-processesand-procedures/travel-documents .................... 29
USCIS,
I-131, Application for Travel Document,
available at https://www.uscis.gov/i-131 ......... 29
USCIS,
I-821, Application for Temporary Protected
Status, available at https://www.uscis.gov/i821...................................................................... 24
USCIS,

Policy Memorandum PM 602-0179, Matter
of Z-R-Z-C-, Adopted Decision 2020-02
(AAO) (Aug. 20, 2020) ....................................... 27

USCIS,

Temporary Protected Status, available at

https://www.uscis.gov/humanitarian/
temporary-protected-status ................................ 24
Wendy Cervantes et al.,

Our Children’s Fear: Immigration Policy’s
Effects on Young Children,

Ctr. Law & Soc. Pol’y (Mar. 2018),
https://tinyurl.com/ChildFears ......................... 17

ix
TABLE OF AUTHORITIES – Continued
Page
Zillow Research,
TPS-Protected Salvadoran Homeowners

Paid Approx. $100M in Property Taxes Last
Year, Zillow (Jan. 8, 2018), https://www.

zillow.com/research/salvadoran-immigranthomeowners-17868/#:~:text=Salvadoran%20
immigrant%20homeowners%20
previously%20granted,paid%20in%20
California%20and%20Texas ....................... 19, 20

1

INTEREST OF AMICUS CURIAE

Amicus curiae Harvard TPS Coalition (“HTC”) is a

group of Harvard University workers, students, faculty,
and supporters who want permanent residency for
people with Temporary Protected Status (“TPS”) and
Deferred Action for Childhood Arrivals (“DACA”).1
HTC advocates on behalf of approximately two hundred
Harvard University employees, students, and affiliates
with TPS. Many of these Harvard TPS recipients have
spent years building their lives in the United States.
They are married, have children, have purchased
homes, and are productive members of their communities. Many Harvard TPS recipients are eligible or
will become eligible to adjust their status through a
family member. The Respondents’ (the “Government’s”)
position in this case threatens Amicus because it
significantly restricts the ability of these Harvard
TPS recipients to obtain permanent residency and a
path to U.S. citizenship. Under the Government’s interpretation, these Harvard TPS recipients would have
to leave the United States, return to a country deemed
to pose a serious threat to their personal safety, and
be subject to multi-year time bars before being allowed
to re-enter the United States. This would significantly
disrupt their lives and the lives of their families. HTC,
1 Pursuant to Supreme Court Rule 37.6, counsel for amicus states
that no counsel for a party authored this brief in whole or in
part, and no person other than amicus or their counsel made
any monetary contribution intended to fund the preparation or
submission of this brief. Pursuant to Supreme Court Rule 37.3(a),
all parties have provided consent to the filing of this amicus
curiae brief.

2
therefore, has a significant interest in the proper
resolution of the issues presented in this case. Allowing
eligible TPS recipients to adjust their status to
become permanent residents would also strengthen
the Harvard community by ensuring that Harvard
TPS recipients can continue to thrive and by ensuring
that families who have built their lives around the
Boston-Cambridge area can continue to contribute to
Harvard University, their communities, and the United
States as a whole.

INTRODUCTION AND
SUMMARY OF THE ARGUMENT
For nearly two decades, over 400,000 people
have relied on TPS to safeguard them against the
humanitarian crises in their countries of origin
and to allow them to pursue their American dreams.2
Many TPS recipients came to the United States in
their late teens–early adult years to provide for a
better life for themselves and their families and often
escape the dangerous conditions of their countries of
origin. TPS helped them to find work, get their driver’s
licenses, and find footing in a new country while
they waited for conditions to improve at home. As time
went on, however, and conditions continued to preclude the possibility of return, TPS recipients found
themselves attached to their local communities
and the United States. They joined local houses
of worship, got married, had children, bought houses,
2 Cong. Rsch. Serv., RS20844, Temporary Protected Status:
Overview and Current Issues 5 (2020).

3
started businesses, and finished their education. Over
88.5% of TPS recipients are employed,3 significantly
higher than the 61.5% average civilian labor force
participation rate. 4 In short, they have become
integral members of their communities.
TPS recipients have also significantly strengthened
the Harvard community. It is estimated that approximately two hundred TPS recipients are Harvard
employees, students, and affiliates, and they serve
important roles at Harvard. As expressed in a letter
sent by some Harvard TPS recipients to then-Harvard
University President Drew G. Faust, “[b]etween feeding
Harvard students and cleaning Harvard offices, we are
the first to greet the students at breakfast and the
last to see departing researchers each evening . . . .
[W]e cook, clean and provide for American children
that dream of more opportunity than we had back
home.”5 Harvard University has also expressed its
strong support for Harvard TPS recipients and their
need for permanent residency. Referring to Harvard
TPS recipients as “highly valued and productive
colleagues,” 6 and “family members, friends, and
3 Cecilia Menjivar, Temporary Protected Status in the United
States: The Experiences of Honduran and Salvadoran Immigrants,
Ctr. for Migration Rsch. (2017), http://ipsr.ku.edu/migration/pdf/
TPS_Report.pdf.
4 U.S. Bureau of Lab. Stat., Civilian Labor Force Participation Rate,
https://www.bls.gov/charts/employment-situation/civilian-laborforce-participation-rate.htm (last visited Feb. 19, 2021).
5 Letter from Harv. TPS Coal. to Drew G. Faust, President,
Harv. Univ. (Jan. 26, 2018) (on file with author).
6 Letter from Drew G. Faust, President, Harv. Univ. to Speaker

Ryan and Leaders McConnell, Schumer, and Pelosi, U.S. Congress
(Feb. 2, 2018) (on file with author).

4
neighbors of our students, faculty, and staff,” 7
President Faust and current Harvard University
President Lawrence Bacow have both requested that
the federal government ensure Harvard TPS recipients
can continue living, working, and thriving in the
United States.8
Like those across the United States, Harvard
TPS recipients have made a place for themselves in
the United States through hard work and by overcoming the many obstacles before them. Many risked
their lives to come to the United States for a better
life for themselves and their families. Prior to
obtaining TPS, they found what work they could
and often maintained multiple jobs not only to sustain
themselves, but also to support their families back in
their countries of origin. Thanks to TPS, many who
had no lawful immigration status were able to come
out of the shadows and find significantly better jobs
to support themselves and their families.
Despite their now-longstanding ties to the United
States, Harvard TPS recipients remain in a constant
state of anxiety and fear without permanent residency.
For many years they understood that, while TPS
provided them with an incredible opportunity to build
a life in the United States, it could be taken away at
7 Drew Gilpin Faust & Christopher L. Eisgruber, Letter in support
of those affected by TPS policy changes, Harv. Univ.: Office of
the President (May 16, 2018), https://www.harvard.edu/president/
news-faust/2018/letter-in-support-of-those-affected-by-tps-policychanges/.
8 Id.; Lydialyle Gibson, The Time Is Now, HARVARD MAGAZINE
(Feb. 19, 2021), https://harvardmagazine.com/2021/02/presidentbacow-joins-leaders-calling-for-immigration-reform.

5
any moment. As Harvard TPS recipient Jose Portillo
puts it, “we were always thinking about the fact that
this is a temporary status and that one day they were
probably going to take it away from us.” In 2017, the
Trump Administration did just that when it rescinded
TPS for hundreds of thousands.9 Suddenly, TPS
recipients and their communities were under attack.
One such community was the Harvard community,
where Harvard TPS recipients faced the prospect of
losing their jobs and their livelihoods, and destroying
their children’s futures.
That threat of losing TPS further demonstrates
why as many eligible TPS recipients as possible should
be able to safely and quickly adjust their status to
become permanent residents and eventually U.S.
citizens. To many Harvard TPS recipients, the United
States is also their home, and they desire to make
their investments in this country permanent. Allowing
more TPS recipients to do so would not only strengthen
Harvard University, but the United States as a whole.

9 Miriam Jordan, Trump Administration Says That Nearly 200,000
Salvadorans Must Leave, N.Y. TIMES (Jan. 8, 2018), https://
www.nytimes.com/2018/01/08/us/salvadorans-tps-end.html.

6

ARGUMENT
I.

HARVARD TPS RECIPIENTS HAVE DEEP ROOTS
IN THEIR COMMUNITIES, AND SUPPORT HARVARD
U NIVERSITY , T HEIR F AMILIES , T HEIR L OCAL
ECONOMIES, AND THE NATION.

The following are stories of only a handful of the
many inspiring TPS recipients who play an integral
role in strengthening the Harvard community:
 JULIO PEREZ, a team leader and custodian at
Harvard University, has spent more than half of
his life in Boston, Massachusetts. Julio and his
wife Marina, also a TPS recipient, live in Boston
with their sixteen-year-old son, a U.S. citizen.
Julio attends his local Catholic church and has
served his local parish. When the Trump Administration rescinded TPS for Salvadorans, he chose
to commit all of his free time to protecting his
family and thousands like it from having to
uproot their lives and leave the United States.
He joined both national and local campaigns to
ensure TPS recipients remain protected. Thanks
to the Harvard Bridge Program, Julio was able
to receive his GED and finish his high school
education. Now, he has his eyes set on continuing his education. “I hope that I can still achieve
my dreams of going to college,” Julio says. “Even
[if] it will be the last days of my life, I want to
have that privilege.”

7
 DORIS LANDAVERDE , a custodian at Harvard
University and a leader of SEIU Local 32BJ, has
lived in the United States since 2000. Doris is
married and has three daughters, all of whom
are U.S. citizens. As a proud union member,
Doris helped create the Harvard TPS Coalition.
She has organized Harvard TPS recipients and
has garnered support among Harvard faculty,
students, and administrators. Through the
Harvard Bridge Program, she obtained her high
school diploma in only six months. She dreams
of pursuing a psychology degree in college, and
hopes to see her daughters follow their dreams
and one day attend Harvard University.
 JULIA RIVAS, a housekeeper at Harvard University,
has spent twenty-one years, more than half of
her life, in Boston, Massachusetts. She is married
with two sons, ages three and nine-months, who
are U.S. citizens. Julia attends Catholic Mass with
her family and is involved in her local parish.
She hopes to become a U.S. citizen one day, and
dreams of watching her children grow up and
pursue their dreams here in the United States.
 JOSE BONILLA, an assistant cook at Harvard University, came to the United States when he was
seventeen; Jose’s wife is also a TPS recipient.
Together, they have three children, ages eighteen,
five, and four. Jose and his family own a home in
Roslindale, a residential neighborhood in Boston,
Massachusetts, where they also attend church.
He dreams of one day starting his own restaurant.

8
 MARVIN CARRANZA, an assistant cook at Harvard
University, came to the United States when he
was twenty years old. He goes to Catholic Mass
on Sundays and attends community meetings to
help others with matters involving TPS. He hopes
to become a U.S. citizen one day so that he can
continue working and living in the United States
without fear of deportation.
 JOSE PORTILLO, a custodian at Harvard University,
has lived in the United States since 1998. He
lives with one of his sisters, one of his brothers,
and his father, all of whom have TPS. The four of
them send weekly remittances to their eight
siblings and mother who live in their country of
origin. Jose is currently being initiated into a
Catholic church in Boston. He hopes to one day
become a U.S. citizen so that he can more
confidently invest in his future in the United
States, including purchasing a home for him and
his family and starting a business.
Like countless other TPS recipients, these men
and women are integral members of the Harvard
community, the Boston community, and our nation.
They now struggle and fight for their American
dream and for the opportunity to stay in the United
States as permanent residents and, one day, U.S.
citizens. As Julio Perez put it: “This is our country.
This is our home. What we have is the privilege to
live in a democracy that allows us to defend ourselves.
And that’s what I’m fighting for, and that is our
dream, to achieve permanent residency.”

9
A. Harvard University Is Dependent on Many
TPS Recipients to Provide Critical Support
Across the University.
Harvard University depends on TPS recipients
to provide critical support in multiple departments
across the University. According to Doris Landaverde,
approximately 200 TPS recipients work either directly
for Harvard or through a sub-contractor. TPS recipients
include Harvard custodians, cooks, housekeepers,
bus drivers, software developers, and so much more.
They perform essential functions that help keep the
University running, and serve the student body,
faculty, and the administration alike. As the HTC
has stated, “[b]etween feeding Harvard students and
cleaning Harvard offices, [Harvard TPS recipients]
are the first to greet the students at breakfast and the
last to see departing researchers each evening. Like
many from Haiti and El Salvador across the country,
we cook, clean and provide for American children that
dream of more opportunity than we had back home.”10
For example, Jose Portillo works as a custodian
in Boylston Hall and Harvard Hall. He began working
at Harvard in 2001, soon after he received work
authorization, and has remained at the University
for over twenty years. Jose has enjoyed his time at
Harvard; his co-workers are professional, his supervisors are kind, and the students are respectful. Like
him, many TPS recipients have remained with Harvard
for their entire careers. Marvin Carranza is another
example. Prior to having TPS, he worked at a
restaurant in Boston and a temporary job at Fenway
Park. In 2005, after acquiring TPS, he began working
10 Letter from Harv. TPS Coal, supra note 5.

10
as an assistant prep cook for a Harvard contractor.
He was then promoted to cook’s assistant and is now
an assistant cook. Marvin enjoys his job and is proud
of the food that he cooks for students.
Like Marvin, Julio Perez also worked his way up
to obtain a permanent job at Harvard. After acquiring
TPS, he began working for a hotel in Cambridge. In
2008, after getting his commercial license, Julio
began driving for a company that had contracts with
universities and colleges. Through that position, Julio
became acquainted with Harvard, often driving for
class reunions and graduations. In 2012, he was
hired by a Harvard contractor as a part-time custodian.
He subsequently became a full-time custodian and
was promoted to lead a team of custodians. Julio
appreciates his job, the University’s support of his
activism, and its support of his desire to attend college.
Harvard University itself has repeatedly recognized the importance of its TPS recipient employees,
students, and affiliates. For example, former Harvard
University President Faust penned multiple letters
to Congress in support of Harvard TPS recipients.
President Faust described TPS as “emblematic of the
American ideals of hope and opportunity,” and
recognized the many Harvard TPS recipients as
“highly valued and productive colleagues.”11 President
Faust, along with Princeton University President
Christopher Eisgruber, also pled with Congress to act
to protect the many TPS recipients “who contribute
as employees at [their] institutions.”12 In that letter,
11 Drew G. Faust, supra note 6.
12 Drew Gilpin Faust & Christopher L. Eisgruber, supra note 7.

11
President Faust described Harvard TPS recipients as
“family members, friends, and neighbors of our
students, faculty, and staff . . . [who] have made a home
in the United States and benefitted our economy and
our nation.”13
Harvard’s advocacy and support for Harvard
TPS recipients has continued under current President
Bacow. In a recent letter to President Biden, he
advocated for a more permanent solution for TPS
recipients “to ensure that these individuals do not
lose the right to live and work in the United States,
including many at Harvard.”14 In a recent summit on
comprehensive immigration reform, President Bacow
added that “Congress must end the uncertainty and
provide the broadest possible relief for those who are
undocumented, including those who enjoy temporary
protected status.”15
Harvard’s recognition of the importance of Harvard
TPS recipients goes beyond the University’s own
advocacy. The University also has been supportive of
its employees’ activism and fight for permanent resident
status for TPS recipients. For example, Julio Perez
has expressed his gratitude to Harvard for allowing
him to take two months off in order to drive the bus
“On the Road to Justice” across the United States
and organize local TPS communities. The University
has also provided Harvard TPS recipient employees
13 Id.
14 Lawrence S. Bacow, Letter to President-elect Biden, HARV.
UNIV.: OFFICE OF THE PRESIDENT (Dec. 11, 2020), https://www.
harvard.edu/president/news/2020/letter-to-president-elect-biden/.
15 Lydialyle Gibson, supra note 8.

12
with opportunities to obtain their high school diplomas
and continue their education.16 Julio Perez, Doris
Landaverde, Jose Bonilla, and Marvin Carranza have
all benefitted from the Harvard Bridge Program. The
broader Harvard community itself also has provided
significant support to Harvard TPS recipients.
Students, faculty, and staff have all advocated on
behalf of Harvard TPS recipients and have supported
their fight for permanent status, declaring that
“Harvard TPS workers have built their entire lives here
in America, . . . [t]hey too are Harvard, and deserve
as much, if not more, support from the University as
any other member of this community.”17
The importance of TPS recipients to Harvard’s
workforce and community cannot be understated.
Evidenced by the strong support from the Office of
the University President, the faculty, the students,
and the staff, Harvard recognizes that it relies on
TPS recipients, not just as employees, but as members
of its community.18 Providing its community members
with a safe and clear pathway to permanent residency
helps solidify the investment the University has
made in its TPS recipients and prevents the detrimental
consequences that a possible loss of TPS would pose

16 Cristela Guerra, Harvard service workers learn English
between shifts, BOS. GLOBE (Apr. 4, 2018), https://www.bostonglobe.

com/lifestyle/2018/04/04/harvard-service-workers-squeezeclasses-between-shifts/PjcnajBKTr02U7uijFwafI/story.html.

17 Editorial, Calling for Permanent, Not Temporary, Protected
Status, THE HARV. CRIMSON (Feb. 6, 2018), https://www.thecrimson.
com/article/2018/2/6/editorial-permanent-not-temporary/.
18 Faust & Eisgruber, supra note 6.

13
to both the Harvard community and to the University’s
workforce.
B. Harvard TPS Recipients Have Children and
Spouses, Many of Whom Are U.S. Citizens,
That Are Dependent on Their Remaining in
the Country.
Harvard TPS recipients not only contribute to the
Harvard community but also materially and emotionally support their families in the United States. There
are roughly 270,000 U.S.-citizen children under the
age of 18 who live in households with family members
who hold TPS.19 In contemplating the consequences
of losing their TPS status, or even having to return
to their countries of origin to apply for permanent
residency, parents face unfathomable options. These
include returning to their country of origin alone and
leaving their children behind or taking their U.S.citizen children with them to a country that their
children do not know, where their safety cannot be
ensured, and where their future life prospects are
significantly diminished.
For example, many Harvard TPS recipients are
from El Salvador and are afraid of returning to El
Salvador to raise their children, due in large part to
the challenges to ensuring their safety and providing
comparable opportunities for their families there. The
State Department has advised against returning
nationals to the country, as “El Salvador remains
19 Leila Schochet & Nicole Prchal Svajlenka, How Ending TPS
Will Hurt U.S.-Citizen Children, CTR. FOR AM. PROGRESS
(2019), https://cdn.americanprogress.org/content/uploads/2019/
02/07053255/Children-of-TPS-Holders-factsheet.pdf.

14
unable, due to ongoing security and economic conditions, to handle adequately the precipitous return of
its nationals. . . . including a significant amount of
children, most of whom are dual U.S.-Salvadoran
nationals. . . . Parents in many communities in El
Salvador fear boys may be targeted for gang recruitment and girls may be forced into sexual relations with
gang members. Many parents in El Salvador refuse
to even send their children to school out of fear of the
gangs.”20 The State Department warns against travel
to the country due to high levels of crime, as “El
Salvador has one of the highest homicide levels in
the world.”21 Forcing TPS recipients to uproot their
lives and return to countries like El Salvador where
they may face significant harm in order to obtain
permanent resident status in the United States is
contrary to the purpose of TPS in the first place,
which is to ensure the safety of TPS recipients and
their families.
Harvard TPS recipients are deeply concerned
about how conditions in their countries of origin like
El Salvador would affect themselves and their children.
In addition to the significant safety risks, opportunities
for work are limited, and the jobs that do exist pay
very little compared to what Harvard TPS recipients
earn in the United States. For example, although
Jose Bonilla and his wife, who is also a TPS recipient,
20 U.S. Dep’t of State, Recommendations Regarding TPS for Haiti,
Honduras, and El Salvador (Oct. 31, 2017), https://tinyurl.com/
TPS-St-Dept.

21 U.S. Dep’t of State, El Salvador Travel Advisory (Sept. 14, 2020),
https://travel.state.gov/content/travel/en/international-travel/
International-Travel-Country-Information-Pages/ElSalvador.html.

15
own some land in El Salvador that he might be able
to cultivate, he does not know how he would raise his
three children on the $8 per day wage he may expect
to earn through this labor. Marvin Carranza explains
that in El Salvador, despite making very little money,
he likely would be forced to pay significant “rentas”
to gangs for protection. In addition to exercising
territorial control over neighborhoods and extorting
residents, gangs are also known to forcibly recruit
children and sexually abuse women, girls, and lesbian,
gay, bisexual and transgender people.22 Julia Rivas
explained that she is working for “a better future for
my kids and for my family. The future of my children
is here [in the United States], their studies are going
to be here, their lives are here, and I can’t imagine
being separated from my kids if they were to send me
back to my country. I always want to be with them, to
watch them grow up and be involved in their lives.”
The Trump Administration’s plan to rescind
TPS for many countries put Harvard TPS recipients
in the very difficult position of preparing their families
for the possibility of their losing legal immigration
status. Julio Perez, one of HTC’s co-founders, had his
children in mind as he began to fight for protection of
fellow TPS recipients. He shared, “I cannot imagine
my son in my country, trying to make a living,
deported along with his parents to live there when
he’s a U.S. citizen and was born here. Here, he is a
good student, he is dedicated, and he can achieve so
22 Historically, security forces have committed extrajudicial
executions, sexual assaults, enforced disappearances, and torture.
They remain largely ineffective in protecting the population from
gang violence. Hum. Rts. Watch, El Salvador Events of 2020, https:/
/www.hrw.org/world-report/2021/country-chapters/el-salvador.

16
many dreams. He can be someone better than what I
could be when I was his age.”
Doris Landaverde came to the United States
when she was twenty-two to seek work that would
allow her to pay for her medicine she could not afford
in El Salvador. She also knew that with higher
wages she would be able to send money to help her
sick mother and pay for her siblings to finish high
school. Now a mother of three U.S.-citizen daughters,
Doris initially tried to shelter her children from concern about her immigration status, but her oldest
daughter became frightened after reading in the
news about the Trump Administration’s plan to rescind
TPS. Her daughter began to call her every morning
to make sure that Doris made it safely to work, and
every afternoon to make sure she safely made her
way home. Attempting to allay her daughters’ fears,
Doris has brought them to HTC events, and they
have been active in promoting Harvard TPS recipients’
fight for permanent residency as active members of
HTC’s youth group.23 Doris shares the frustration of
other Harvard TPS recipient parents with children:
“We are adults, and we decided to come to this
country . . . . But I feel like they punish our kids.
They are citizens, they are born here, they have the
right to live in this country, [and] they have a right
to a good education. When [the Government] decides
to take away TPS, they don’t think about them.”

23 Children of TPS recipients also have put on a play in Boston
about their experiences. Denise Delgado, Children Of TPS

Recipients Bring Stories Of Uncertainty To The Stage With
‘The Last Dream’, WBUR (Dec. 20, 2018), https://www.wbur.
org/artery/2018/12/20/the-last-dream-children-tps-el-salvador.

17
The concerns described by Harvard TPS recipients
are shared by hundreds of thousands of other TPS
recipient parents across the country. The children of
TPS recipients bear an incredible emotional toll as
they face the uncertainty of either being separated
from their parents or moving with them to a country
they may have never seen. Many studies have detailed
the detrimental impacts on children’s health caused
by the threat of being separated from their parents
through detention or deportation. Many children
experience serious mental health problems, including
depression, anxiety, self-harm, and regression.24
Children’s concerns about their parents’ immigration
status can also impair their socioemotional and
cognitive development.25 Even without the threat of
the Trump Administration’s recission of TPS, Harvard
TPS recipients and their children continue to face the
significant uncertainty of their temporary immigration
status. The Government’s position would further
restrict their ability to obtain permanent resident
status and, in so doing, would inflict immeasurable
damage to Harvard TPS recipients and their families.

24 Wendy Cervantes et al., Our Children’s Fear: Immigration
Policy’s Effects on Young Children, Ctr. Law & Soc. Pol’y (Mar.
2018), https://tinyurl.com/ChildFears.

25 Hirokazu Yoshikawa, Immigrants Raising Citizens: Undocumented Parents and Their Young Children 120-36 (2011).

18
C. Harvard TPS Recipients Contribute Significantly to Local, State, and Federal Economies
Through Their Taxes and Spending Power,
and Could Contribute Even More If They
Became Permanent Residents.
As Julio Perez explained, “we are members of
this society; we have contributed to this country” for
many years. TPS recipients have contributed financially
to their communities and the United States for decades.
By granting work authorization to TPS recipients, the
Government empowered them to make higher wages
and contribute even more to their local economies
and every level of government. In fact, the revenue
that TPS recipients provide to the country has a
significant positive impact on the economy, especially
crucial industries where TPS recipients make up a
significant amount of the work force. And, a safe and
easier path to permanent residency would increase
TPS recipients’ wages and spending power to allow
them to contribute even more to the economy.
Locally, Harvard TPS recipients contribute significantly to their counties and the state of Massachusetts.
The approximately 7,178 TPS recipients who reside in
Massachusetts contributed nearly $20 million in state
and local taxes, and $31 million in federal taxes.26
This is on top of the $166.6 million in spending power
that they contribute to their local economy,27 and the
26 New Am. Econ. Rsch. Fund, Overcoming the Odds: The Contributions of DACA-Eligible Immigrants and TPS Holders to the
U.S. Economy (2019), https://research.newamericaneconomy.org/
report/overcoming-the-odds-the-contributions-of-daca-eligibleimmigrants-and-tps-holders-to-the-u-s-economy/#_ftn19.
27 Id.

19
$645 million they contribute to the state’s GDP.28
Furthermore, as of 2017, Salvadoran TPS recipients
alone have contributed anywhere from $2.2 million
to $3.7 million in Massachusetts property taxes, which
go directly towards improving schools and communities
across the state.29 Jose Bonilla is one such contributor; he purchased his home in 2005—only four
years after he obtained TPS.30
On a national level, TPS recipients paid a
combined $1.54 billion in state and federal taxes in
2017, and had a remaining $5.3 billion in spending
power.31 They have contributed $4.5 billion to the
GPD annually as well as $6.9 billion to Social Security
and Medicare contributions over the course of a
decade.32 Furthermore, an estimated 61,100 TPS
28 Ctr. for Am. Progress, TPS Holders in Massachusetts, https:/
/cdn.americanprogress.org/content/uploads/2017/10/19130146/
101717_TPSFactsheet-MA.pdf.
29 Zillow Research, TPS-Protected Salvadoran Homeowners Paid
Approx. $100M in Property Taxes Last Year, https://www.zillow.

com/research/salvadoran-immigrant-homeowners-17868/#:~:
text=Salvadoran%20immigrant%20homeowners%20previously%20
granted,paid%20in%20California%20and%20Texas.

30 Some TPS recipients own multiple homes, and help the housing
market by renting their other property. Eduardo Porter,

Harvard Is Vaulting Workers Into the Middle Class With High
Pay. Can Anyone Else Follow Its Lead?, N.Y. TIMES (Sept. 8, 2018),

https://www.nytimes.com/2018/09/08/business/economy/harvardliving-wage.html?module=inline.
31 New Am. Econ. Rsch. Fund, supra note 26.

32 Amanda Baran et al., Economic Contributions by Salvadoran,
Honduran, and Haitian TPS Holders, Immigrant Legal Res.
Ctr. (2017), https://www.ilrc.org/sites/default/files/resources/201704-18_economic_contributions_by_salvadoran_honduran_and_
haitian_tps_holders.pdf.

20
recipients across the country own homes and have
mortgages,33 contributing at least $96 million in
property taxes nationwide in 2017.34 Given their
uncertain immigration status, some TPS recipients
fear making such long-term financial commitments
to the United States, which is an additional reason
why they need a path to permanent residency.
TPS recipients, including those at Harvard, also
contribute on an international level. Many TPS
recipients came to the United States initially to flee
dangerous conditions in their countries of origin and
help support their families through remittances. As
noted above, Doris Landaverde came to the United
States to earn money to help her sick mother and her
siblings in El Salvador. Jose Portillo also sends money
to his eight siblings and mother back in El Salvador.
Along with other Salvadoran TPS recipients, they
contributed over $600 million in remittances to El
Salvador in 2017, or approximately 2% of the country’s
GDP.35 With permanent resident status, TPS recipients would be able to contribute even more to their
families and communities in their countries of origin,
which would hopefully improve the conditions there
as well.
Governments are not the only entities that would
benefit if more TPS recipients had permanent resident
status and a path to U.S. citizenship. Without such
33 Id.
34 Zillow Research, supra note 29.
35 Nurith Aizenman, What You May Not Realize About The End
Of TPS Status of Salvadorans, NPR (Jan. 9, 2018), https://www.

npr.org/sections/goatsandsoda/2018/01/09/576583550/what-youmay-not-realize-about-the-end-of-tps-status-for-salvadorans.

21
status, many continue to live in fear of deportation
because their TPS could be rescinded at any time. If
that were to occur, mortgage-lenders would face
mass-defaults from homeowners who have lost their
TPS, and employers would suffer approximately $967
million in turnover costs.36 This estimate does not
include losses from disruption arising out of losing
significant numbers of employees. For instance,
California construction firms would lose approximately
8,400 Salvadoran and Honduran workers; 37 Texas
construction firms would lose 8,200.38 Other industries
that could suffer sizeable losses include restaurants
and other food services, landscaping services, child
day care services, and grocery stores.39
Permanent resident status, and later citizenship,
would allow TPS recipients to contribute even more
to their local communities and to the country. With
permanent resident status, TPS recipients would be
assured that their investments in America will not
be stripped from them one day due to a hostile
administration. This means many could feel empowered
to return to school and pursue a college education,
take a risk and open a restaurant, or even simply
purchase a home knowing that they will be around
when the mortgage is paid off. Julio Perez and Doris
Landaverde hope to pursue college degrees; Jose
36 Id.
37 Am. Immigr. Council, Workers with Temporary Protected
Status in Key Industries and States (2019), https://www.
americanimmigrationcouncil.org/research/workers-temporaryprotected-status-key-industries-and-states.
38 Id.
39 Id.

22
Portillo hopes to buy a house with his father and
siblings if they are granted permanent residency;
Jose Bonilla hopes to open a food mart or restaurant
one day if given permanent residency. Their hesitance
to pursue these dreams now in the face of recent
attacks on TPS and the ease with which the program
can be rescinded is shared by many TPS recipients
across the country. A path to permanent residency
helps to erase that hesitation and allows them to take
risks in the hopes of bettering themselves and their
circumstances. By bettering themselves, they increase
their contributions to their communities and the
United States, thereby bettering the nation as a whole.
The contributions of TPS recipients, including
those at Harvard, cannot be overstated. While only
making up a small portion of the total population,
they represent a substantial benefit to the United
States economy. Despite the significance of their contributions, their future in the country remains in
limbo. Even if the Biden Administration currently has
no plans to rescind TPS, TPS recipients have no
protection if a future administration attempts to strip
them of their legal status again. They, therefore,
require a safe, reliable method of adjusting to permanent resident status that allows them to continue to
grow and contribute to their communities and averts a
potential economic disaster if they were forced to leave.
II.

HARVARD TPS RECIPIENTS NEED A SAFE AND
ACCESSIBLE PATHWAY TO PERMANENT RESIDENCY.

While TPS allows individuals to remain in the
United States, TPS recipients still face significant
hardships, such as continuously renewing their status
and employment authorization, high renewal costs,

23
and the uncertainty of losing their discretionary
protection altogether. While many Harvard TPS
recipients would like to make greater investments in
building their lives in the United States through
further education, purchasing homes, and starting
businesses, it is difficult to undertake such long-term
goals when their future continues to remain uncertain.
The Government’s position in this case prevents
many TPS recipients from having a safe and accessible
pathway to permanent residency. TPS recipients
eligible for permanent resident status should not
have to expend significant resources to travel outside
of the United States, return to countries that continue
to pose a risk to their personal safety, and be subject
to multi-year bars that may prevent them from
reuniting with their families in the United States.
A. The Temporary Nature of TPS Presents Undue
Financial and Emotional Costs for Harvard
TPS Recipients.
Harvard TPS recipients have built their lives in
the United States based on a temporary and discretionary immigration status that only protects them
from imminent removal. While TPS status provides
work authorization, Harvard TPS recipients still face
many hardships and uncertainties due to the
“temporary” designation of their immigration status.
Harvard TPS recipients face significant risks if they
leave the United States and are not automatically
permitted to re-enter. They cannot petition for family
members to join them in the United States. They continuously live in fear that their TPS status may be
rescinded. And, they have to repeatedly apply for and
pay high fees to maintain their work authorization.
These costs are a significant burden for individuals

24
who have spent decades of their lives contributing to
this country.
Each time TPS is extended for a designated
country, TPS recipients from that country are required
to re-register if they wish to maintain TPS status.
In addition to re-registering, TPS recipients must
reapply for work authorization to continue working
lawfully in the United States. See USCIS, Temporary
Protected Status, available at https://www.uscis.gov/
humanitarian/temporary-protected-status. These processes are expensive and time consuming. TPS recipients
from El Salvador, for example, must pay a $495
application fee every 18 months. See USCIS, I-821,
Application for Temporary Protected Status, available
at https://www.uscis.gov/i-821. This process is even
more expensive for those who do not have access to
free legal services.
For both Julio Perez and Jose Bonilla, who have
spouses that are TPS recipients, these costs are
doubled. While Jose is thankful that Harvard University provides him a day off to go through the process of
getting fingerprinted and preparing his documentation
to reapply for TPS and his work authorization, it is
much harder for his wife to ask for time away from
work. Julia Rivas lives in fear of what might happen
if she was no longer able to pay the renewal costs:
“What happens if we lose our job at the wrong
time? . . . After twenty-plus years of renewing TPS we
still have no hope of getting something better. One of
my biggest fears is not having the money to be able
to renew. What happens if we lose a job and can’t
survive here?”
In addition to the financial burden of maintaining
their TPS status and work authorization, TPS

25
recipients live in constant fear that their status may
be rescinded and they will be forced to return to their
countries of origin, despite the fact they have lived in
the United States for decades and have built lives
and families here. That fear came into fruition when
the Trump Administration attempted to rescind TPS
for hundreds of thousands of individuals. It was only
through rapid mobilization that TPS recipients and
their allies were able to secure a nationwide injunction
to temporarily halt the rescission of TPS. See Ramos
v. Nielsen, No. 18-cv-01554 (N.D. Cal. Oct. 3, 2018).
That injunction was later vacated by the Ninth Circuit,
and TPS for those subject to the injunction—including
TPS recipients from El Salvador, Haiti, Nicaragua
and Sudan—has been extended only through October
4, 2021. Therefore, the uncertainty and fear remain.
For Doris Landaverde, the recission of TPS
brought to light the pressing need to fight for permanent residency in the United States:
It’s like we woke up. In some way the good
thing that happened is that we realized,
[TPS] is not forever. It was bad in one way
and it was hard. But otherwise, if this
wasn’t happening we would go to work like
normal and think that everything is fine, but
we would always face the renewal process
every 18 months. Now we have a hope that
one day maybe we will have something permanent. This is what we’re fighting for now.
We’re not fighting to be under TPS. We hope
we can have something more permanent so
our kids can have a more normal life.
Permanent resident status would provide Harvard
TPS recipients the opportunity and security to invest

26
in themselves, their families, and this country. Many
have dreams that they are unable to pursue without
the knowledge that they will be able to continue
living and working in this country. For example,
purchasing a home or business is a long-term investment, one that many more TPS recipients would like
to make. Almost one-third of TPS recipients own their
own home, only half the proportion of homeowners in
the general U.S. population.40 Jose Bonilla would
like to buy a home for his family and has been
dreaming of starting his own business by opening his
own Salvadoran restaurant in Boston. And, Doris
Landaverde, who found time to study in the early
mornings and late at night while continuing to work,
was able to finish her high school diploma in just six
months through the Harvard Bridge Program and
would like to pursue her dream of getting a college
degree in psychology.
B. Eligible TPS Recipients Should Not Be
Required to Disrupt Their Lives and Return
to Unsafe Conditions in Their Countries of
Origin to Obtain Permanent Residency.
Certain Harvard TPS recipients are eligible now
to apply for permanent residency through qualifying
family members, such as U.S.-citizen spouses or
children. Others will become eligible in the near future. Because some TPS recipients accrued “unlawful
presence” in the United States before obtaining TPS
status, they would be subject to three- and ten-year
bars from returning to the United States if they
leave. 8 U.S.C. § 1182(a)(9)(B). Therefore, the question
40 Menjivar, supra note 3, at 19.

27
the Court will decide significantly affects whether
those TPS recipients must be required to disrupt
their lives, return to unsafe conditions in their countries of origin, and be subject to multi-year bars from
returning to the United States just to apply for permanent residency. Given the significant harm and
burden of doing so, the Court should reject the
Government’s position and hold that their TPS status
itself is an admission that would allow eligible TPS
recipients to adjust their status without being forced
to leave the United States.
Previously, certain eligible TPS recipients could
qualify as “inspected and admitted or paroled” by
leaving and returning to the United States using a
process called “advance parole.” In August 2020,
however, USCIS changed its position and now contends
that returning to the United States with advance
parole no longer means that a person was “inspected
and admitted or paroled” under 8 U.S.C. § 1255.41
This change in policy makes it even more important
that TPS recipients not be forced to leave the United
States to become permanent residents. For example,
Marvin Carranza was planning to travel outside the
United States with advance parole in 2017 but needed
to delay the trip for a surgery. Given pandemicrelated travel restrictions, he does not know when
such a trip might become possible again.42 And,
41 See USCIS Policy Memorandum PM 602-0179, Matter of ZR-Z-C-, Adopted Decision 2020-02 (AAO) (Aug. 20, 2020).
42 Currently the Center for Disease Control and Protection has
listed El Salvador as having a “very high” number of cases, and
advises against any travel to the country. Ctr. for Disease Control
and Prevention, Covid-19 in El Salvador, https://wwwnc.cdc.
gov/travel/notices/covid-4/coronavirus-el-salvador.

28
because the new USCIS policy remains in effect,
even if he were to be able to travel on advance parole
and return to the United States, that trip would no
longer meet an important eligibility requirement to
allow him potentially to adjust his status to become a
permanent resident in the future.
Therefore, unless the Court holds that TPS itself
satisfies the “inspected and admitted” requirement,
the only way certain TPS recipients may be permitted
to apply for permanent residency is if they leave the
United States, travel to their country of origin, apply
for an immigrant visa at a U.S. consulate, and return
to the United States as an immigrant. Many TPS
recipients would be subject to mandatory multi-year
time bars before re-entering the country. By definition,
a TPS designation means that returning to one’s
country of origin would “pose a serious threat to an
[individual’s] personal safety,” that a disaster has
resulted in a “substantial” disruption and the country
is “unable” to “handle adequately” the return of its
citizens, or that other extraordinary circumstances
exist that prevent its nationals “from returning to
the state in safety.” 8 U.S.C. § 1254a(b).
Harvard TPS recipients would, therefore, have
to uproot their lives, put themselves and their families
at serious risk of harm, and could be prevented from
returning to the United States for years just to be
eligible to apply for permanent residence under the
Government’s position. As discussed above, many
Harvard TPS recipients are from El Salvador and
are afraid of returning there to raise their children
out of fears regarding their safety and having sufficient
economic opportunities to provide for them and their
families. See supra pp. 13-15.

29
And, even if USCIS reverts back to its old policy
and permits travel on advance parole to meet the
eligibility requirement for some (but not all) TPS
recipients, advance parole is still onerous, expensive,
and inaccessible for many Harvard TPS recipients.
The filing fee for an application for advance parole costs
$575. See USCIS, I-131, Application for Travel Document, available at https://www.uscis.gov/i-131. That
does not include attorneys’ fees, airfare, or other travelrelated expenses. Moreover, the COVID-19 pandemic
has made international travel especially unsafe and
difficult during this time. Advance parole does not
guarantee re-entry into the United States, and a TPS
recipient who leaves could be barred from returning
to live with their families if a Customs and Border
Protection (“CBP”) officer at a port of entry deems
them to be inadmissible for a host of reasons.43
For example, Doris Landaverde spent hundreds
of dollars to obtain advance parole to visit her sick
mother and sister who was having surgery in El
Salvador. When she returned to Boston Logan Airport
with her children, she was asked to wait and be
inspected in a separate room. Her heart was racing
as she feared what may happen if they did not let her
back in the United States. TPS recipients should not
have to live with such fear simply to allow them the
right to apply for and obtain the permanent resident
status they need and deserve.

43 See USCIS, Advance Parole, available at https://www.uscis.gov/
green-card/green-card-processes-and-procedures/travel-documents.

30

CONCLUSION
For the foregoing reasons, the Court should hold
that a grant of TPS authorizes eligible noncitizens to
obtain lawful permanent resident status. Doing so
would significantly benefit Harvard TPS recipients,
Harvard University, and communities, institutions,
companies, and governments across the United States.
Without a safe and accessible path to permanent
residency, Harvard TPS recipients, as well as those
across the country, will continue to live in fear of
deportation due to their temporary status, negatively
affecting the lives that they have built in the United
States for themselves and their families, as well as
the nation as a whole.
Respectfully submitted,
SAMEER AHMED

COUNSEL OF RECORD FOR AMICUS CURIAE

SABRINEH ARDALAN
HARVARD IMMIGRATION AND
REFUGEE CLINICAL PROGRAM
HARVARD LAW SCHOOL
6 EVERETT STREET
CAMBRIDGE, MA 02138
(617) 384-8165
SAHMED@LAW.HARVARD.EDU
ALEV ERHAN
BESHOY SHOKRALLA

HARVARD LAW SCHOOL STUDENTS

MARCH 1, 2021

